           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       JOINT SOCIAL SECURITY
    AND CANADIAN BENEFICIARIES
   RESIDING IN THE UNITED STATES

      May 2008   A-01-05-25124




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      May 2, 2008                                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Joint Social Security and Canadian Beneficiaries Residing in the United States
           (A-01-05-25124)


           OBJECTIVE

           Our objective was to confirm the identities of beneficiaries residing in the United States
           who were receiving benefits from both the Social Security Administration (SSA) and
           Human Resources and Social Development Canada (HRSD).

           BACKGROUND
           In November 2005, SSA’s Office of the Inspector General (OIG) met with officials from
           HRSD to discuss a joint proposal to confirm the identities of Canadian social insurance
           beneficiaries residing in the United States as well as to confirm the identities of United
           States Social Security beneficiaries residing in Canada. 1 Based on our discussions, we
           proceeded with a joint project whereby SSA/OIG agreed to conduct site visits on
           beneficiaries living in the United States who were receiving benefits from both the
           United States and Canada (that is, joint beneficiaries) to confirm their identities.

           Generally, beneficiaries may continue to receive benefits from both SSA and HRSD
           while residing in the United States. However, because these individuals reside outside
           of Canada, there is an increased risk that HRSD will not timely detect events—such as
           death—that could impact a beneficiary’s eligibility or payment amount.




           1
            SSA pays retirement benefits to eligible individuals under Title II of The Social Security Act. (The Social
           Security Act § 201 et seq., 42 U.S.C. § 401 et seq.)
Page 2 - The Commissioner


As of April 2007, there were 28,655 beneficiaries residing in the United States receiving
benefits from both SSA and HRSD. We limited our review to 7,342 joint beneficiaries
who were age 69 or older, receiving $100 or more in monthly benefits and residing in
certain geographical areas. We selected a random sample of 275 individuals from this
population for personal contact to verify they were alive. (See Appendix B for additional
background information, including scope and methodology.)

RESULTS OF REVIEW
We confirmed the identities of almost all 275 joint beneficiaries residing in the United
States. Of the 275:

       270 beneficiaries (98 percent) were alive and properly receiving benefits.

       5 beneficiaries (2 percent) were deceased. SSA detected the deaths and
        stopped benefits timely.

SSA and HRSD Service to Beneficiaries

During our visits, we inquired about the service beneficiaries received from both SSA
and HRSD. Overall, beneficiaries who sought assistance from both agencies reported
being satisfied with the service they received.

OIG Service to Beneficiaries

In several instances, we were asked for basic customer service assistance when we
visited beneficiaries. For example, one beneficiary asked how her family should handle
her Canadian social insurance affairs once she dies. We informed the beneficiary that
her family should contact HRSD in Canada when she dies since SSA and HRSD do not
exchange death information. The beneficiary was grateful and thanked us for this
information.

Accuracy of SSA’s Contact Information

SSA’s records contained accurate contact information for 186 of the 275 joint
beneficiaries in our review. For the remaining 89 beneficiaries, we found that SSA did
not have current address and/or telephone information on its records. 2 It is important
that SSA’s records contain current contact information so the Agency may contact
beneficiaries when necessary regarding benefit payments. For example, SSA may
need to contact a beneficiary to verify continuing eligibility or payment amount. The
table below summarizes the 275 cases in our review by the accuracy of SSA’s contact
information.



2
 As of March 2008, SSA had updated all but four of the beneficiaries’ records and was in the process of
updating the remaining addresses and telephone numbers.
Page 3 - The Commissioner


             Accuracy of SSA’s Contact           Number of
                                                                     Percent
                    Information                 Beneficiaries
          Telephone Only Incorrect                      64              23%
          Address and Telephone Information
                                                        18                  7%
          Incorrect
          Address Only Incorrect                         7                  2%
          Sub-Total: Address and/or Telephone
                                                        89              32%
          Information Incorrect
          Address and Telephone Information
                                                       186              68%
          Correct
          Total                                       275              100%


CONCLUSION

Within our sample, we confirmed the identities of almost all the joint beneficiaries
residing in the United States. In addition, we found that beneficiaries were generally
satisfied with the service they received from both SSA and HRSD. Furthermore, we
found that SSA’s records contained accurate contact information for a majority of the
joint beneficiaries in our review.

AGENCY RESPONSE
SSA was pleased with the results of our review. (See Appendix C.)




                                                Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                   Appendix A

Acronyms
HRSD   Human Resources and Social Development Canada
OIG    Office of the Inspector General
SSA    Social Security Administration
                                                                                     Appendix B

Background, Scope and Methodology
In November 2005, the Social Security Administration’s (SSA) Office of the Inspector
General (OIG) met with officials from Human Resources and Social Development
Canada (HRSD) to discuss a joint proposal to confirm the identities of Canadian social
insurance beneficiaries residing in the United States as well as to confirm the identities
of United States Social Security beneficiaries residing in Canada. 1 Based on our
discussions, we proceeded with a joint project whereby SSA/OIG agreed to conduct site
visits on beneficiaries living in the United States who were receiving benefits from both
the United States and Canada (that is, joint beneficiaries) to confirm their identities. In
return, HRSD agreed to conduct site visits on joint beneficiaries living in Canada to
confirm their identities. 2

With the assistance of SSA’s Office of International Programs, Office of International
Operations, and other appropriate components, an appendix was added to the existing
Administrative Understanding on Mutual Assistance between Canada and the United
States for this initiative. The new appendix was approved on April 13, 2007.

Joint Beneficiaries Residing in the United States

In June 2007, we received from HRSD a file of 54,777 Canadian beneficiaries residing
in the United States. We matched Canada’s file against Social Security benefit rolls
and identified a population of 28,655 beneficiaries residing in the United States who
were receiving benefits from both the United States and Canada (that is, joint
beneficiaries) as of April 2007. We then limited the population by age and monthly
benefit amount and excluded anyone with a monthly benefit amount less than $100 and
anyone who was under the age of 69.

We further limited the population to those joint beneficiaries residing within 120 miles of
an OIG/Office of Audit or the cities of Miami, Tampa, or Orlando, Florida; and
Los Angeles, California. As a result, we identified a population of 7,342 joint
beneficiaries residing within these areas. We selected a random sample of
275 individuals from the population we identified for review to confirm whether the
beneficiaries were alive. The following table summarizes the 275 cases by State.




1
 SSA pays retirement benefits to eligible individuals under Title II of The Social Security Act. (The Social
Security Act § 201 et seq., 42 U.S.C. § 401 et seq.)
2
  HRSD selected a random sample of 275 joint beneficiaries residing in Canada to confirm their identities.
As of March 2008, HRSD had completed a majority of its cases and confirmed the identities of most of the
joint beneficiaries residing in Canada.


                                                    B-1
                                                   Number of
                                  State
                                                  Beneficiaries
                            Florida                  100
                            California                 85
                            New York                   24
                            Massachusetts              15
                            Texas                      11
                            Maryland                   10
                            Illinois                    9
                            Pennsylvania                7
                            Georgia                     7
                            Virginia                    5
                            Missouri                    1
                            Kansas                      1
                                    Total            275

For the 275 joint beneficiaries selected for review, we:

      Sent letters to the address of record for each of the beneficiaries notifying them
       of our intention to meet with them in person, explaining the purpose of the visit,
       and requesting address and telephone number corrections.

      Researched available data on SSA’s systems and found that five beneficiaries
       were deceased. These deaths were reported timely, and, as a result, SSA
       stopped benefits timely.

      Received reports from beneficiaries of telephone number and address
       corrections. Some beneficiaries also notified us of dates they would be available
       to meet with us.

      Conducted interviews and established identities for 270 of the 275 joint
       beneficiaries.

      Referred 1 of the 270 cases to SSA for development, since we were unable to
       initially contact the beneficiary.

We performed our review between July 2007 and March 2008 in Boston,
Massachusetts, and beneficiaries’ residences in the United States. We tested the data
obtained for our audit and determined it to be sufficiently reliable to meet our objective.
The principal entities audited were SSA’s Field Offices and Program Service Centers
under the Deputy Commissioner for Operations.




                                            B-2
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                         B-3
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      April 24, 2008                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Joint Social Security and Canadian
           Beneficiaries Residing in the United States” (A-01-05-25124)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We are pleased that in
           98 percent of the cases reviewed, the audit confirmed the identities of the beneficiaries residing
           in the United States and receiving benefits from the Social Security Administration (SSA) and
           Human Resources and Social Development Canada (HRSD), and that the remaining 2 percent of
           the cases were found to be deceased beneficiaries whose records were terminated timely. We are
           also pleased with the finding that the beneficiaries were generally satisfied with the service
           provided by SSA and HRSD. Finally, we are encouraged to learn that the majority of the records
           reviewed contained accurate contact information. Beneficiaries are responsible for reporting
           changes in contact information, such as current address and telephone numbers, and this
           information is not always reported timely.

           We look forward to receiving the results of the HRSD review as it relates to American
           beneficiaries residing in Canada.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Frank Salamone, Senior Auditor

   Melinda Tabicas, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-05-25124.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and
procedures, internal controls, and professional standards, the OIG also has a comprehensive Professional
Responsibility and Quality Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
